                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A12060042                                                                     Page 1 of 1



                 NSF OIG received an allegation that a post-doctoral fellow 1 who conducted NSF-funded
         research2 falsified material in a manuscript submitted to ajournal. 3 The fellow admitted that he
         falsified data by manipulating images. The university's investigation determined the fellow
         intentionally committed falsification, but found that the image manipulations did not affect the
         conclusions of the pending manuscript. The university issued a research misconduct finding and
         terminated the fellow's employment. The joumal4 rescinded its acceptance ofthe manuscript for
         publication. A differentjournal5 subsequently published a revised version of the manuscript6
         with unaltered images and data.

                 We concurred with the university's findings. We concluded that the fellow intentionally
         falsified data to obtain desired images for a manuscript, and that this constituted a significant
         departure from accepted practices. NSF concurred with the recommendations in our Report of
         Investigation (ROI), and made a finding of research misconduct and debarred the fellow for a
         period of one year. In addition, NSF prohibited the fellow from participating as a peer reviewer,
         advisor, or consultant for a three year period. For an additional three years post-debarment, the
         fellow is required to submit certifications and assurances for all proposals or documents
         submitted to NSF, as well as certifications of adherence to a data management plan. NSF also
         required that he complete a course in the responsible conduct of research.

                 This memo, the attached ROI, and the letters from the Office ofthe Deputy Director on
         the notice of research misconduct determination and the final notice of debarment constitute the
         case closeout. Accordingly, this case is closed.




                          The article acknowledged support from NSF award




NSF OIG Form 2 (11102)
SENSITIVE                                                                                    SENSIT1VE




       National Science Foundation
         Office of Inspector General




                   Report of Investigation
                  Case Number A12060042
                                August 7, 2013

                         This Repor(of Investigation is provided to you
                                    .FOR OFFICL4L lTSEONLY.
  I1 contains protected personal infolmation, the unauthoriZed disclosure ofwhich may result in
  persona! crllninalliability imder the PrivacyAc.t, 5 U.S.C. § 552a; This repmt maybe further
 •rusclosed·•withi:IINSF···im(l" . to individuals .who .must have •. knowledge·••of .. its contents to
  facilita,fe.NSF's assessment and resolution of this. matter. This report may be disclosed
  outside NSF only under the Freedmn of!nformation and Privacy Acts, 5 US;C. §§ 552 &
  552a. ]?lease take appropriate precautions handling this report of investigation.

                                                                                   NSF OIG Form 22b (1/13)
SENSITIVE                                                                             SENSITIVE


                                      Executive Summary


Allegation:    A research associate who conducted NSF-funded research at a university
               intentionally falsified data in a submitted publication.

University
Investigation: The Investigation Committee concluded, based on the preponderance of the
               evidence, that the Subject intentionally committed falsification, which constituted
               a significant departure from accepted practices of the research community. The
               Subject was terminated and prohibited from being employed or readmitted to the
               University for a period of seven years.

OIG
Assessment: OIG concurred with the University's conclusion.

                   •   The Act: The Subject falsified data.
                   •   Intent: The Subject acted intentionally.
                   •   Stanc:Iard of Proof: A preponderance of evidence supports a finding of
                       research misconduct.
                   •   Significant Departure: The Subject's actions represent a significant
                       departure from accepted practices.
                   •   Pattern: No pattern found.

OIG Recommends:
             • Make a finding of research misconduct.
             • Send a letter of reprimand.
             • Require certification of responsible conduct of research training within 1
                year ofNSF's finding.
             • Debar the Subject from receiving federal funds or participating in any
                federally-funded project for a period of 1 year.

               Additionally for a period of 3 years immediately following the debarment period:

                   •   Bar the Subject from participating as a peer reviewer, advisor, or
                       consultant for NSF.
                   •   Require certifications and assurances.
                   •   Require submission of a detailed data management plan with annual
                       certifications of adherence.




                                                 1
SENSITIVE                                                                                     SENSITIVE


                                              University's Inquiry

        The University 1 conducted an Inquiry into an allegation that a research associate
(Subject)2 who conducted NSF funded research3 falsified material in a submitted manuscript
(Article 1).4 The Subject was listed as a project participant (post-doctoral fellow) in the Annual
and Final reports 5 of the awarded NSF proposal. The allegation came from the journal's
Publication Committee (Journal)6 which initially approved the manuscript for publication.
During the processing of the accepted Article 1 for publication, the Journal determined that two
ofthe figures (Figure 2 and Figure 5A) appeared to show signs of image editing. The Journal
requested the principal investigator (PI), who is the corresponding author of the submitted
manuscript, provide explanations and copies of the original data for the two figures. 8

          Specifically, the Journal highlighted9 the questionable RT-PCR (reverse transcription-
polymerase chain reaction) generated band ofDNA in lane 5 of Figure 5A, pointing out that lane
5 "has hard edges suggesting splicing/editing. Sample in Lane 5 has similar features to sample
in Lane 6." For Figure 2, the Journal noted 10 that in the immunofluorescence image of cultured
cells 11 treated with two growth factors 12 for 3 days, an "[a]rea has been selectively edited to
obscure originally captured data. Would like to see the original capture to confirm composition."
Article 1 was listed as an accepted publication in the 2011-2012 Annual Report of the NSF
award. 13

         The PI only became aware of the potential misconduct when it was raised by the Journal.
The PI initially provided the Journal a response 14 and the requested original data for Figure 5A
stating:

             " ... it is also clearly evident that my postdoc pasted a copy of the band in lane 6 on top of
             the lighter band in lane 5. I'm dumbfounded as to why he did this since the original image
             was perfectly fme. It also doesn't matter whether the band is light or dark only that it is
             present. I distinctly remember discussing the original image and that we both felt it


2

3
    Tab 1:

    Article 1 entitled


    Tab2:
6




8
  Tab 3: Letters of communication betwee
• • • • • • (Note: throughout this report, page numbers noted in the Tabs are the page numbers generated
from Adobe .pdf).
9
  Tab3,pg3.
10
   Tab 3, pg 6.
11


     PP~ri;m;ruy~c~u;hm~e~o~============~~~c~el~ls~.~~~
121!!!
     Tab 2, pg 16. The 2011-2012 Annn:u:a~1R~e:p~o;rt~w~a~s~su:b:m~itt:e~d~o:n=~~~~~~~~=--·
13
14
     Tab 4: Email from the PI to the I

                                                           2
SENSITIVE                                                                                    SENSITIVE


            would look better when printed if the bands were darker. I also asked him to try
            increasing the contrast or simply to run a new gel. Apparently, he found a shortcut."

        The PI then sent an additional response 15 to the Journal which included the requested
original data for Figure 2, and the revised, annotated Figures 2 and 5. The PI stated:

            "My postdoc has returned from [ ] and I have finally spoken with him. As you can see,
            he covered some cellular debris [in Figure 2] that was left over from the isolation
            procedure. As with the other image, he did this for esthetic reasons and not to
            misrepresent the data in any way. In fact, the presence or absence of the debris [in Figure
            2] has absolutely no impact on the data.

            He explained that this change to the image was not meant to misrepresent data, but rather
            to improve the legibility of the figure. He recognizes doing so was inappropriate, takes
            full responsibility for his actions and is willing to speak to you if you desire. However, I
            understand that this is ultimately my burden to bear. I want to add that he has been
            reprimanded and given a termination date."

        In a letter 16 to the PI, the Journal decided to rescind their acceptance of Article 1 as they
determined "that Figures 2 and 5A have been inappropriately prepared." Another manuscript
(Article 2) 17 submitted by the PI and Subject was accepted for publication as the Journal deemed
"there were no ethical concerns."

        The PI contacted the Department Chair 18 and the Vice President for Research (VPR) 19
about the data falsification. In accordance with the University's research misconduct policies,20
the University conducted an Inquiry into the alleged research misconduct committed by the
Subject.

        The Inquiry Committee reviewed the allegation letter from the Journal, the original data
provided by the PI, the Subject's written statements, and also interviewed witnesses. The
Inquiry Report21 contained a summary of the PI's interview in which he stated the Subject
verbally admitted that he had falsified data in the submitted Article 1 and offered to provide a
letter of admission. The Subject gave the letter of admission22 to the PI to review, but the letter

15
   Tab 5: Email from the PI to t h e · · · · · · · · · · · · · · · · -
16Tab3,pgs 10-11.
17 Tab 6: Article 2 entitled




Jj Tab 7:                                                      Research Misconduct Policy.
21 Tab 8: Inquiry Report of Research Misconduct Cas                             with Exhibits.
22 Tab 9: Draft letter from


                                                      3
SENSITIVE                                                                              SENSITIVE


was never sent to the Journal as the PI was advised23 not to do so by the VPR. In the draft letter,
the Subject admitted masking "a blob of extraneous material" in Figure 2 and for Figure SA and
that "the original band in the laneS was superimposed with the copy of the band from lane 6."
The Subject admitted he was merely trying to make the figures look better for the Article 1
publication and did not intend "to misrepresent the original data" and "never tried to fraudulently
represent the data." Furthermore, the Subject emphasized that "[the PI was] not aware of any of
these alterations and I urge the committee to excuse [the PI] of any consequences from the
decision" 24 of the Journal.

       Based on the admission, the Subject was excused from the PI's lab, the Department
withdrew the I-129 application to extend the Subject's H-lB status, and the Subject's
employment was terminated? 5 Under University policy the termination of employment did not,
however, terminate the requirement for an inquiry_2 6

        Simultaneously, the University formally notified27 the Subject about the allegation of data
falsification and the convened Inquiry Committee. The Inquiry Committee asked28 the Subject if
he manipulated the images for Figures 2 and SA in the submitted Article 1 as indicated in the
                29                               30
Journal's letter and if he wrote the draft letter to the Journal of his own free will. In his email
           31
response, the Subject affirmed that he manipulated the gel image. The Subject stated:

          "In the gel image there was a band, however, it was faint and during [a] previous PCR
          there was [a] thick band. So the PCR was [a] little finicky and when I saved the gel image
          the band was faint. By then I already repeated the experiment three times and [the PI]
          was pushing for results. So I manipulated the image for just showing [the PI]. My
          thinking was to come back later and repeat the experiment. But I was juggling so many
          tasks that I completely forgot about the manipulated image until the Journal pointed [it
          out]."

        The Subject also affirmed that he wrote the draft letter to the Journal upon a request from
the PI. This was inconsistent with the PI's testimony where the PI stated the Subject offered a
letter of admission. The Subject explained that the PI's request was to review the letter for
grammatical editing, but the PI later refused to comment on it upon advice from University
administration. In contrast to the Subject's composed draft letter for the Journal, the Subject's
email response did not include an explanation for the Figure 2 image manipulation in Article 1.

       The Inquiry Committee concluded there was no evidence that the PI was aware of the
Subject's actions before being notified by the Journal and that the PI did not create "a culture of
undue pressure [in the lab] to produce publishable data." 32 Based on the preponderance ofthe

23
   Tab 8, pg 2.
24
   Tab 9, pg 1.
25
   Tab 10:

     Tab 7, pg21.
27
28 Tabll:························
   Tab 8, pgs 137-138.
29
   Tab 3, pg 1.
30
   Tab 9.
31
   Tab 8, pgs 3 and 137.
32
   Tab 8, pg 2.

                                                   4
SENSITIVE                                                                                      SENSITIVE


evidence, the Inquiry Committee concluded there was sufficient evidence of research misconduct
(data falsification) from the actions of the Subject to warrant an investigation. The Committee
opinioned "[t]he falsified data [in Article 1] did not alter the conclusions of the study but
appeared to be primarily cosmetic." 33

                                             Subject's Response to Inquiry

      The Inquiry Report was provided to the Subject in an email 34 for review and comments.
The Subject responded by email concluding:

           "I deeply regret what I have done and the inconvenience caused to [the PI] and [the
           University]. It was never my plan to deceive the research community or the journal, but a
           lapse in my judgement and laziness on my part. I want to assure that I will not do any
           future research except for teaching purpose." 35

                                               University's Investigation

         The University informed NSF OIG about the research misconduct allegations and their
initiation of an investigation. 36,3 7 We referred the matter to the University pending their
investigation. 38 Although the University initiated their investigation upon a charge from the
Provost, 39 the Interim VPR40 contacted NSF OIG as the Inquiry Report concluded that:

           "since [the Subject] has admitted the misconduct and since he is no longer employed by
           the University nor resident in the United States further investigation may not be
           warranted. [The VPR] should discuss whether or not to proceed with further
                                                                  41
           investigation with the National Science Foundation."

        We advised that it was imperative that an investigation be completed in order to fully
assess the extent of the research misconduct, including an evaluation of the Subject's other
research records, data and publications. 42

       Based on an additional interview of the PI and review of the original data sets, the
Investigation Committee (IC) reaffirmed that the Subject "did commit research misconduct




33
   Tab 8, pg 4.
34
   Tab 8, pg 139.
35
   Tab 8, pg 139.
36
   Tab 12:


J/ Tab 13: Letter from Interim VPR to NSF OIG
38
     Tab 14: Referral Letter to University
39
40



     Tab 8, pg4.
42
     The Subject's other potential research data in the PI's lab was listed in Tab 14, pg 3.

                                                              5
SENSITIVE                                                                                 SENSITIVE


through falsification of data" 43 in Article 1 and that "[t]hese falsifications of data were clearly
intentional and performed knowingly." 44

        Overall, the IC determined that the Subject's research misconduct in Article 1 "was an
isolated event, and found no evidence of similar falsification of data in any other papers on
which the [Subject] is a coauthor, or in grants submitted to the NSF ."45 The Subject was asked46
by the IC about the manipulation of Figures 2 and SA in Article 1 and his involvement in the PI's
lab in the preparation of other figures or the generation of data for submitted manuscripts,
publications and NSF grant proposals. However despite two attempts by the IC, the Subject
failed to respond. 47 Alternatively, the IC asked the PI about the Subject's contributions in
manuscripts and NSF grant proposals.48 The PI indicated that the Subject did not contribute to
the NSF grant proposals and made minor technical contributions for the submitted manuscripts
but did not generate the figures. 49

        Regarding Figure SA in Article 1, the IC determined that the Subject "cut and pasted a
band from lane 6 from the same gel over the weak band [in lane S] ." 50 Regarding the image of
cultured cells in Figure 2 in Article 1, the IC determined that the Subject "intentionally covered
up an area on the image that [contained] debris [ ] with a blank area digitally cut and pasted from
a different region of the [field]" as the Subject "intended to increase the aesthetics of the
image." 51 The IC concluded that "Figure 2 and Figure SA of the submitted paper [Article 1]
were altered to enhance the images but were not altered in a manner that changed the analysis of
the data, the primary information from the research or the conclusions in the publication." 52
However, "based on a preponderance of evidence, [the] falsification of data constituted a
significant departure from accepted practices at [the University]." 53

        The IC concluded that the "actions of data falsification by the [Subject] did not have a
significant impact on the research record, research subjects, other researchers, institutions or the
public welfare" as "[o]ther scientists in [the PI's] lab were not impacted by the withdrawal of
[Article 1]" and "[t]he manuscript originally submitted to the [Journal] was resubmitted to a
different journal with the correct, original unaltered figures, and has now been accepted for
              54 55
publication. " •



43
   Tab   15: Investigation R e p o r t · · · · · · · with Exhibits, pg 1.
44
   Tab   15, pg 4.
45
   Tab   15, pg 1.
46
   Tab   15, pgs 550-551.
47
   Tab   15, pgs 4 and 553-554.
48
   Tab   15, pgs 671-672.
49
   Tab   15, pgs 675-676.
50
   Tab   15, pg 3.
51
   Tab   15, pg 5.
52
   Tab   15, pg 1.
53
   Tab   15, pg 5.
54
   Tab   15, pg 6.
55
   Tab   16: Article 3 entitled



                                                        6
SENSITIVE                                                                                 SENSITIVE


                                         University Adjudication

        The Deciding Official56 determined that the Subject "may not be employed or readmitted
to [the University] for a period of seven years" 57 based on the preponderance of the evidence that
the Subject committed research misconduct. The Interim VPR informed the Subject, the PI and
the Journal about the final decision and the research misconduct fmding. 58 ,59 ,60

                                                OIG's Assessment

        The University provided OIG with its reports and exhibit materials and OIG invited61 the
Subject to provide comments on the University's Investigation Report. The Subject did not reply
despite two messages to the Subject. 62

        In a departure from their policies,63 the University did not provide the Subject with the
draft investigation report for comments as the University was not able to succeed in obtaining
responses from the Subject during the course of the investigation. However, we assessed the
University's policies and their actions and concluded that the University followed reasonable
procedures. After evaluating the Investigation Report, we deemed it to be satisfactory and we
adopted the fmdings in lieu of conducting our own investigation.

       A finding of research misconduct by NSF requires that ( 1) there be a significant departure
from accepted practices of the relevant research community, (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a
preponderance of the evidence. 64

                                                    The Acts

       Based on the evidence provided, we concur with the University IC's assessment that the
Subject:

       1. Falsified Figure 2 of Article 1 by omitting cellular debris in an image of cultured cells.

       2. Falsified Figure 5A of Article 1 by pasting a copy of the band in lane 6 on top of the
          lighter band in lane 5 in a digital image of an agarose gel ofRT-PCR DNA products.

        The IC found, by a preponderance of the evidence, that the Subject falsified data, which
constituted a significant departure from accepted practices. The Subject falsified data in figures
that were included in a manuscript submitted to a journal and initially approved for publication.


56
     See footnote #39.


                              to!!ntlen~·m~VP~R~~~~!!~=
57
58
   Tab 18: Letter from Interim VPR to Subject
59
   Tab 17:
   Tab 19: Letter
           Letter from
                  from Provost
                       Interim VPR to PI
60
   Tab 20: Letter from Interim VPR to Journal
61
   Tab 21: OIG Letter to Subject
62
   Tab 22: Second OIG message to Subject
63
   Tab 7, pg 19.
64
   45 C.P.R.§ 689.2(c).

                                                       7
SENSITIVE                                                                                                     SENSITIVE


                                                         Intent

        The IC found the Subject intentionally falsified data and we concur with the IC's
assessment. The Subject acknowledged he intentionally falsified data provided to the PI and the
Journal. His actions and admissions indicate he decided to falsify the data as he did not obtain
the desired results due to technical or methodological difficulties and wanted to produce the
expected images for the PI and for the figures in the submitted manuscript Article 1.

                                                 Standard o{Proo{

        Based on his own admission and documented evidence, the IC found by a preponderance
of the evidence that the Subject intentionally falsified data. We concur with the IC and conclude
that the Subject intentionally falsified data, thereby committing an act ofresearch misconduct. 65


                                      OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) How serious the misconduct was; (2) The degree to which the misconduct was
knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a pattern;
(4) Whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) Other relevant circumstances. 66

                                                     Seriousness

        The Subject's actions are a violation of the standards of research ethics. The Subject's
intentionally falsified data were included in a submitted manuscript. The Subject's actions
adversely affected his immediate research community by potentially harming the PI's reputation
with the Journal when the integrity of data in the manuscript was questioned. The Journal
followed their Publication Ethics Policies 67' 68 in the assessment of figure manipulation when
suspecting fabricated/falsified data in a submitted or published manuscript. Although the
manuscript was initially approved for publication, the Journal ultimately decided to rescind its
approval based upon the PI's response and analyses of the original data provided by the Pl.

        Article 1 was resubmitted to a different journal69 with the correct, original unaltered
Figures 2 and SA and was subsequently published (Article 3). 70 Article 3 was listed as a product
in the Final Report of the PI's NSF award. 71 Figure 2 (top panel) in Article 3 displayed an image
of cultured cells 72 treated with two growth factors 73 for a period of 3 days and labeled for a


65
   45 C.P.R. part 689.
66
   45 C.P.R.§ 689.3(b).
          . .11..~..~~~~~~~11~111111111111111111111111111111111111111
67
68
   Tab23:
   Tab 24: Journal's Publication Ethics Policies, pg 3.
69 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . .
70
     Tab 16.
71
     Tab 2, pgs 21 and 23-24.

731PP:rim:ary~c~u:ltu:r;e~o=========c~el~ls•.IIIII
72




                                                             8
SENSITIVE                                                                              SENSITIVE


specific protein74 and cellular organelle. 75 The positive staining of cellular debris was noted as
artifactual and highlighted accordingly in the figure legend. The inclusion of the cellular debris
in the Figure 2 image panel of Article 3 had no bearin~ on the interpretation of the Figure 2
results. The exclusion of the labeled cellular debris via intentional image manipulation and data
falsification by the Subject in Article 1 did not alter the conclusions regarding how specific
growth factors regulate the differentiation of proliferating cultured cells.

         Figure 5A in Article 3 displayed RT -PCR amplified DNA separated by electrophoresis
on an agarose gel. The DNA products for a specific processed gene transcript76 were obtained
from various tissue or cell culture77 preparations in which the latter were treated with either
growth factors 78 or left untreated for a period of 3 days. Less intense bands of the unspliced and
spliced gene transcripts were present in lane 5 (sample was from cultured cells treated with one
growth factor) .as compared to the more intense band of the unspliced gene transcript in lane 6
(sampl~ was from cultured cells treated with both growth factors). These results drew the
conclusion in Article 3 that the second growth factor inhibited the other growth factor's ability to
process the gene transcript. For Figure 5A in Article 1, the Subject's data falsification included
the substitution of the less intense band of the spliced gene transcript in lane 5 with the more
intense band of the unspliced gene transcript in lane 6 which could have altered the conclusions
regarding the action on growth factors on gene transcript splicing. Nevertheless, the PI and the
IC concluded that for the studies in Figure 5A, the mere presence of the band in lane 5 mattered,
not its intensity in relation to the band in lane 6.


                                         Degree oflntent

        We found no evidence to mitigate our conclusion that the Subject intentionally falsified
data. His actions and admission indicate he falsified his data because he did not obtain the
desired images for the manuscript. The Subject maintained that the data falsifications did not
alter the conclusions of the research studies but were to improve the aesthetics of the images.

        The professional society79 which produces the joumal80 that reviewed Article 1 maintains
                         81
a set of ethical policies for authors, including a provision under which altering data (adding or
removing features) to match the author's conclusions is considered fraud. 82

         The Subject intentionally deceived the Journal and the reviewers who reviewed Article
1 by not providing an accurate account of the results obtained. Although these actions did not
adversely affect the research conclusions, the Journal rescinded their acceptance of the
manuscript for publication. The Subject's actions were an intentional violation of the research


75-
74~~--·
76



II See footnote #72.
78
     See footnote #73.


79===================~.................................
80
81
82
     Tab 24.
     Tab 24, pgs 2-3.

                                                  9
SENSITIVE                                                                                            SENSITIVE


community principles and values. As a post-doctoral fellow, he violated basic expectations of
academic behavior when conducting research. Universities expect their research community
(faculty, students and staff) will adhere to the scholarly expectations of accuracy, validity and
integrity in research. The Subject's actions indicate a failure in carrying out the expected
responsibilities in sustaining professional honesty and integrity. Only after the Journal
questioned the data and images and contacted the PI for an explanation did the Subject admit to
the data falsification.

                                              Pattern o[Behavior

          While the Subject was non-responsive to the IC's queries, the PI did not identify any
other manipulations in the Subject's contributions. We therefore do not find a pattern of
falsification.

                                       Impact on the Research Record

       The falsified data that was included in Article 1 did not have an impact in the literature as
the manuscript was not ultimately accepted for publication. The manuscript (Article 3) was
resubmitted to a different journal with the corrected, original unaltered Figures 2 and SA and was
subsequently published. Article 3 has been cited83 twice, each by publications 84 from the PI's
lab.

                                                 Other Concerns

       The IC determined that the Subject received training in the responsible conduct of
research (RCR). He attended and completed two RCR training sessions at the University, first as
a graduate student, then as a post-doctoral fellow. 85 Basic RCR training explains that the honest
representation of data is a basic tenet of all those who conduct scientific research.

                                    Subject's Response to Draft Report

        We provided the Subject with a copy of the draft investigation report with attachments
for comment. 86 Comments or a rebuttal were expected to be received within 30 days. We also
sent a reminder message 87 but the Subject did not respond. Thus, our original determinations
and recommendations as stated above remain unchanged.
83
84




Ji The Subject's biographical sketch which included his education timeline is located in Tab 15, pg 748.

Ji Tab 25: Letter to Subject with Draft Report oflnvestigation.
87
     Tab 26: Reminder Message to Subject.


                                                         10
SENSITIVE                                                                                 SENSITIVE


                                                Recommendations

Based on the evidence, OIG recommends NSF take the following actions:

                  •    Send the Subject a letter of reprimand notifying him that NSF has made a
                       finding of research misconduct. 88

                  •    Require the Subject to certify to the Assistant Inspector General for
                       Investigations {AlGI) his completion of a responsible conduct of research
                       training program and provide documentation of the program's content within
                       1 year ofNSF's fmding. 89 The instruction should be in an interactive format
                       (e.g., an instructor-led course) and specifically include data fabrication and
                       falsification.

                  •    Debar the Subject for one year. 90

For a period of three years immediately following the debarment period:

                  •    Bar the Subject from participating as a peer reviewer, advisor, or consultant
                       for NSF. 91

                  •    Require for each document (proposal, report, etc.) to which the Subject
                       contributes for submission to NSF (directly or through an institution),


                            o the Subject submit a contemporaneous certification to the AlGI that
                              the document does not contain plagiarism, falsification, or
                              fabrication. 92
                            o the Subject submit a contemporaneous assurance from a responsible
                              official of his employer to the AlGI that the document does not contain
                              plagiarism, falsification, or fabrication. 93

                  •    Require the Subject to submit to the AlGI for each NSF proposal a detailed
                       data management plan including requirements for notebooks and data
                       archiving to be adhered to during the course of any resulting award, and to
                       provide annual certifications that this plan is being implemented. 94




88
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
89
   This action is similar to Group I actions 45 C.F .R. 689 .3(a)(l ).
90
   A Group ill action 45 C.F.R. 689.3(a)(3)(iii).
91
   A Group ill action 45 C.F.R. 689.3(a)(3)(ii).
92
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).
93
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).
94
   This action is similar to a Group II action 45 C.F.R. 689.3(a)(2)(ii).

                                                            11
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




       OFF!CE OF THE




CERTIFIED MAIL ~·RETURN RECEIPT REQUESTED




         Re:      Notice ofDebarment


Dear

On January 13, 2014, the National Science Foundation (NSF) issued you a Notice of Proposed
Dehannent ("Notice") in which NSF proposed to debar you from directly or indirectly obtaining
the benefits of Federal grants for a period. of one year. As reflected in the Notice, NSF proposed
to debar you because you falsified data while performing NSF-funded research. In that Notice,
NSF provided you with thirty days to respond to the proposed debannent.

The period for submitting a response to NSF ha~d NSF has not received a response
from you. Accordingly. you are debarred u n t i l - - 2015.

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition RegulatioJ;lS at 48 CFR subpart 9 A for the period of this debarment.
2 CFR 180.925. During the debannent period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant~ contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.

Please note that, in the Notice, NSF also took the following actions against you, which continue
to remain in effect:

    •     For three years from the end of your debarment period, you are required to submit
          certifications that any proposals or reports you submit to NSF do not contain plagiarized,
                                                                                            Page2
       falsified, or fh.bricated material;
   •   For three years from the end of your debam1ent period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material;
   •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
       January l."
   •   You are required to complete a comprehensive responsible conduct of research training
       course by January 1, 2015 and provide documentation of the program's content. The
       instruction should be in an interactive format (e.g., instructor led course, workshop, etc)
       and should include a discussion of data fabrication; and
   •   For three years from the end of your debarment period, you are required to submit a
       detailed data management plan with any proposal submitted to NSF for funding. The
       plan must include requirements for notebooks and data archiving to be adhered to during
       the course of any resulting award. You must also provide annual certifications that this
       plan is being implemented.

Should you have any questions about the foregoing, please contact                  Deputy General
Counsel, at (703) 292-8060.


                                                     Sincerely,

                                                     c   err__,._   1ft .   {)\~
                                                     Cora B. Marrett
                                                     Deputy Director
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINlA 22230



                                                                               JAN 111614

     OFFICE OF THE
    DEPUTY DIRECTOR


VIA CERTIFIED MAIL --RETURN RECEIPT REQUESTED
AND ELECTRONIC MAIL




       Re: Notice of Proposed Debarment and Notice of Researcl1 Misconduct Determination




As a post-doctoral fellow at                                             while performing NSF-
funded research, you falsified data that was included in a manuscript submitted for publication to
a professional journaL This research misconduct is documented in the attached investigative
report prepared by NSF•s Office oflnspector General {"OIG").

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants for one year. During your
period of debarment, you will be precluded from receiving Federal fmancial and non-financial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR''). Lastly. during your debarment period, you will be
barred from having supervisory responsibility, primary management, substantive control over, or
critical influence on. a grant, contract, or cooperative agreement with any agency of the
Executive Branch ofthe Federal Government

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer.
advisor. or consultant to NSF until January 1, 2017, Furthermore, for three years after the
expiration of your debarment period, I am requiring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or reports you submit
to NSF do not contain plagiarized, falsified, or fabricated material. Moreover, by January 1,
2015, you must certifY the completion a comprehensive responsible conduct of research training
course, and provide documentation of the program's content Lastly, for three years after the
expiration of your debarment period, you are required to submit a detailed data management plan
in conjunction \Vith each proposal submitted to NSF~ including requirements for notebooks and
data archiving.
                                                                                             Page2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... "         45 CFR § 689.l(a).
NSF defines "falsification" as "manipulating research materials, equipment, or processes, or
changing or omitting data or results such that the research is not accurately represented in the
reseru:ch record." 45 CFR § 689.l(a)(2).

A finding of research misconduct requires that:

       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly;
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

Your admission of data falsification permits me to conclude that your actions meet the applicable
definition of falsification, as set forth in NSF's regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
research misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report and your admission of data falsification, NSF has determined
that, based on a preponderance of the evidence, your falsification of data was cominitted
intentionally and constituted a significant departure from accepted practices of the relevant
research community. I am, therefore, issuing a finding of research misconduct against you.

NSF's regulations establish three categories of actions (Group I, ll, and III) that can be taken in
response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF; ·
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR § 689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for fimding; and requiring correction to the research record.
45 CFR § 68g_3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct; my determination that it was committed intentionally; the fact·
that the misconduct ha<;l no impact on the research record; and the fact that the misconduct was
                                                                                            Page 3
an isolated incident. I have also considered other relevant circumstances. See 45 CFR §
689.3(b).


Based on the foregoing, I am imposing the following actions on you:

   •   For three years from the end of your debarment period, you are required to submit
       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated material.

   •   For three years from the end of your debarment period, you are required to submit
       assurances by a responsible official of your employer that any proposals or reports you
       submit to NSF do not contain plagiarized, falsified, or fabricated material.

   •   From the date of this letter through January 1, 2017, you are prohibited from serving as
       an NSF reviewer, advisor, or consultant.

   •   You are required to complete a comprehensive responsible conduct of research training
       course by January 1, 2015, and provide documentation of the program's content. The
       instruction should be in an interactive format (e.g., an instructor-led course, workshop,
       etc.) and should include a discussion of data falsification and fabrication.

   •   For three years from the end of your debarment period, you are required to submit a
       detailed data management plan with any proposal submitted to NSF for funding. The
       plan must include requirements for notebooks and data archiving to be adhered to during
       the course of any resulting award. You must also provide annual certifications that this
       plan is being implemented.

All certifications, assurances, training documentation, and data management plans should be
submitted in writing to NSF's Office of Inspector General, Associate Inspector General for
Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.


Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR § 180.800, debarment may be imposed for:

       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)    A willful failure to perform in accordance with the terms of one or more
                                                                                            Page4
                     · public agreements or transactions;


               (3)    A willful violation of a statutory or regulatory provision or requirement
                      applicable to a public agreement or transaction; or

       (d)     Any other cause of so serious or compelling a nature that it affects your present
               responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR § 180.850. In this case, you admitted that you
intentionally falsified data while conducting NSF-funded research, and provided this data for
publication in a professional journal. Thus, your action supports a cause for debarment under 2
CFR §§ 180.800(b) and (d).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR § 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR § 180.860,
we are proposing your debarment for one year.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Finding ofResearch Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director ofthe Foundation. 45 CFR § 689.10(a). Any appeal should
be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For your information, we are
attaching a copy of the. applicable regulations.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR § 180.820. Comments submitted within the 30-day period will receive
full consideration and may lead to a revision of the recommended disposition. IfNSF does not
                                                                                         PageS
receive a response to this notice within the 30-day period, this debarment will becomefmal.
Any response should be addressed to Lawrence Rudolph, General Co-tinsel, National Science
Foundation. Office of the General Counsel. 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For yotir information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.


Should you have any questions about the foregoing, please c o n t a c t - Deputy General
Counsel, at (703) 292-8060.



                                                    Sincerely,




                                                    FaeKorsmo
                                                    Senior Advisor



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
